            Office Of Inspector General




January 8, 2004

ANTHONY J. VEGLIANTE
VICE PRESIDENT, LABOR RELATIONS

SUBJECT: Audit Report – Postal Service’s Equal Employment Opportunity
         Organizational Structure (Report Number HM-AR-04-004)

This report presents the results of our audit of the Postal Service’s Equal Employment
Opportunity Organizational Structure (Project Number 03YG046LH003). This review
was part of our work conducted during the self-initiated survey of Equal Employment
Opportunity monetary settlement agreements (Project Number 03YG046LH000). This
is one in a series of reports developed from the survey, and is intended to help protect
the interests of the Postal Service by making recommendations as soon as we identify
issues.

                                             Background
The Office of Inspector General (OIG) received a hotline complaint while conducting our
review of the Postal Service’s monetary settlement agreements, alleging Postal Service
management routinely violated Equal Employment Opportunity regulations by interfering
with the Equal Employment Opportunity investigative process.1 The complainant stated
the Postal Service’s Equal Employment Opportunity managers reported to Human
Resource managers, and this structure was not in compliance with Equal Employment
Opportunity Commission Management Directive 110. According to the complainant,
this reporting relationship represented a conflict of position and interest in the Equal
Employment Opportunity process.

                               Objective, Scope, and Methodology
The objective of our audit was to determine whether the Postal Service’s Equal
Employment Opportunity organizational structure at the headquarters and area offices
was in accordance with Equal Employment Opportunity Commission guidance. To

1
 We did not conduct a review of the allegations, because the complainant was pursuing them through the Equal
Employment Opportunity complaint process, and our involvement in an open case would have been inappropriate.




    1735 N Lynn St
    Arlington, VA 22209-2020
    (703) 248-2100
    Fax: (703) 248-2256
Postal Service’s Equal Employment                                                                   HM-AR-04-004
 Opportunity Organizational Structure


accomplish our objective, we reviewed Equal Employment Opportunity Commission
Management Directive 110, 29 Code of Federal Regulations (C.F.R.) § 1614, and the
Postal Service’s organizational structure. We also interviewed Postal Service officials at
headquarters and in each of the nine area offices.

This audit was conducted from February 2003 through January 2004, in accordance
with generally accepted government auditing standards and included such tests of
internal controls as were considered necessary under the circumstances. We
discussed our conclusions and observations with appropriate management officials and
included their comments, where appropriate.

                                        Prior Audit Coverage
We did not identify any prior audits or reviews related to the objective of this audit.

                                              Audit Results
Postal Service’s Equal Employment
Opportunity Organizational Structure

The audit disclosed the Postal Service’s Equal Employment Opportunity organizational
structure at the headquarters level was consistent with Equal Employment Opportunity
guidance. We also found, however, the organizational structure at the area level was
not consistent with the guidance. As a result, there was an appearance of a conflict of
position or interest in the placement of some Postal Service Equal Employment
Opportunity officials. This appearance of conflict could compromise the integrity of the
Postal Service’s Equal Employment Opportunity program. However, it should be noted
other than the single hotline complaint we received while conducting our review of the
Postal Service’s monetary settlement agreements, there were no other indicators that
the areas’ Equal Employment Opportunity organizational structure had resulted in
improprieties or the perception of improprieties.

We found the deputy postmaster general was the designated director of Equal
Employment Opportunity at the headquarters level, and he reported directly to the
postmaster general.2 In addition, we found the manager, Equal Employment
Opportunity Compliance and Appeals at the headquarters level, reported to the
vice president, Labor Relations. None of these officials were responsible for executing
and advising on personnel actions. Therefore, this structure was consistent with Equal
Employment Opportunity Commission requirements. We also found, however, area
officials responsible for executing and advising on personnel actions, were also
responsible for managing, advising, or overseeing the Equal Employment Opportunity
pre-complaint or complaint processes. Specifically, the area office managers

2
 This is consistent with 29 C.F.R. § 1614.607, which provides, “An agency head may delegate authority under this
part, to one or more designees.”




                                                        2
Postal Service’s Equal Employment                                                                  HM-AR-04-004
 Opportunity Organizational Structure


responsible for overseeing the Equal Employment Opportunity process reported to the
area human resource managers who were also responsible for personnel actions.

The Equal Employment Opportunity Commission Management Directive 110 and
29 C.F.R. § 1614.102(b)(4) require each federal agency to appoint a director of Equal
Employment Opportunity, who shall be under the immediate supervision of the agency
head. The Equal Employment Opportunity Commission Management Directive 110 also
states, “Agencies must avoid conflicts of position or conflicts of interest as well as the
appearance of such conflicts. For example, the same agency official(s) responsible for
executing and advising on personnel actions may not also be responsible for managing,
advising, or overseeing the Equal Employment Opportunity pre-complaint or complaint
processes. Those processes often challenge the motivations and impacts personnel
actions and decisions. In order to maintain the integrity of the Equal Employment
Opportunity investigative and decision-making processes, those functions must be kept
separate from the personnel function.”

According to the Postal Service’s former Equal Employment Opportunity Compliance
and Appeals manager, the deputy postmaster general was the designated director of
Equal Employment Opportunity who reported directly to the postmaster general. She
believed this was the most relevant reporting relationship intended by the Equal
Employment Opportunity Commission Management Directive 110 and the Equal
Employment Opportunity Commission. She also stated the current field structure
resulted in accountability for Equal Employment Opportunity issues at the area level and
that the sheer size of the agency made the current field structure more feasible.
Additionally, she stated the Postal Service was not aware of situations in which the
structure had resulted in improprieties or the perception of improprieties.

Conclusion

The Equal Employment Opportunity Commission Management Directive 110 is clear
regarding the appropriate organizational structure for handling equal employment
matters. However, the Postal Service’s position that the current field structure resulted
in accountability for Equal Employment Opportunity issues at the area level, and that
the sheer size of the agency made the current field structure more feasible, seems
reasonable, particularly when we found no indicators that the organizational structure
had resulted in improprieties or the perception of improprieties. Finally, given that the
Equal Employment Opportunity Commission’s Office of Legal Counsel recently agreed
with the Postal Service on another compliance issue3 outlined in the Equal Employment
Opportunity Commission Management Directive 110, we believe the appropriateness of
the Postal Service’s organizational structure in the area offices should be resolved
between the Postal Service and the Equal Employment Opportunity Commission.



3
 This issue is discussed further in our report entitled Postal Service’s December 2000 Equal Employment
Opportunity Settlement Policy (Report Number HM-AR-04-003, dated December 30, 2003).




                                                        3
Postal Service’s Equal Employment                                           HM-AR-04-004
 Opportunity Organizational Structure


Recommendations

We recommend the vice president, Labor Relations:

    1. Discuss with the Equal Employment Opportunity Commission whether the Postal
       Service’s current Equal Employment Opportunity organizational field structure is
       consistent with the Equal Employment Opportunity Commission’s regulations
       and guidance.

We also recommend that if the Equal Employment Opportunity Commission determines
the Postal Service’s Equal Employment Opportunity structure is not consistent with its
regulations and guidance, the vice president, Labor Relations:

    2. Take appropriate action to bring the Postal Service into compliance with the
       Equal Employment Opportunity Commission’s regulations and guidance
       regarding organizational structure.

Management’s Comments

Management stated that changes had been made to the Postal Service’s Equal
Employment Opportunity organizational structure, which should satisfy the intent of the
recommendations contained in the report. Specifically, management stated the
advocacy function for Equal Employment Opportunity cases in which a hearing request
is made, was assumed by the Postal Service’s Law Department on October 1, 2003.
They stated the investigatory function would be outsourced to independent contract
investigators, and managed from a national Equal Employment Opportunity services
office, scheduled for opening on January 12, 2004. Management also stated they are
reviewing the adjudicatory function to determine whether changes may be in order in
that function as well. Management’s comments, in their entirety, are included in the
appendix of this report.

Evaluation of Management’s Comments

Management’s actions taken or planned were generally responsive to the
recommendations and should correct the issues identified in the report. However,
should management decide to keep the adjudicatory function with the area Equal
Employment Opportunity manager, and leave the manager under the supervision of the
area Human Resource manager, our recommendation that management discuss such a
structure with the Equal Employment Opportunity Commission for the purpose of
ensuring the reporting structure is consistent with the Equal Employment Opportunity
Commission’s regulations and guidance, still applies.
.




                                           4
Postal Service’s Equal Employment                                            HM-AR-04-004
 Opportunity Organizational Structure


We appreciate the cooperation and courtesies provided by your staff. If you have any
questions, or need additional information, please contact Chris Nicoloff, director, Human
Capital, at (214) 775-9114 or me at (703) 248-2300.



Mary W. Demory
Deputy Assistant Inspector General
 for Operations and Human Capital

Attachment

cc: Patrick R. Donahoe
    Mary Anne Gibbons
    Suzanne F. Medvidovich
    Patricia M. Richter
    Eric J. Scharf
    Susan M. Duchek




                                            5
Postal Service’s Equal Employment                     HM-AR-04-004
 Opportunity Organizational Structure


                    APPENDIX. MANAGEMENT’S COMMENTS




                                        6
Postal Service’s Equal Employment           HM-AR-04-004
 Opportunity Organizational Structure




                                        7
